CERTIFICATE OF COMPLIANCE

No.

Darrell K Saunders
Vinita K Saunders,
Applicant/Petitioner,
v.
Deutsche Bank National Trust Company
As Trustee for CDC Mortgage Capital Trust
2003-HE3, Mortgage,

Respondent.

As Required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 1726 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 13, 2019

VIRGINIA:
Jn the Supteme Cawd of, Virginia held at the Supreme Cowd {Building itt the
City, of {Richmond an {Thursday the 18th day of, CLpnil, 2019.
Appellants,

Darrell Saunders, et al.,
against

Record No. 181509
Circuit Court No. CL17004357-00

Deutsche Bank National
Trust Company, as Trustee, etc.,

Appellee.

From the Circuit Court of the City of Chesapeake
Finding that the appeal was not perfected in the manner provided by law because
the appellants failed to timely file the petition for appeal, the Court dismisses the petition filed in
the above-styled case. Rule 5:17(a)(1).
A Copy,
Teste:

By:

